                       M U N I C AT I O NS
                 O M                         c
             c




                                             OM
   L




                                                 M ISS
fE DE R A




                                                   IO N
                                                   L*
* OFF




                                                 ERA
      ICE




            OF                               ENG
                 THE                         R
                           IN SPECTO

   Semiannual Report to Congress
  October 1, 2006 - March 31, 2007

                       Kent r. nilsson
                  Inspector general
Federal Communications Commission
       Headquarters Building

        Portals II Building
memorandum




  Memorandum to Chairman, Federal Communications Commission
                 Table of Contents
Introduction                                     2


OIG Management Activities                        3


   Office Staffing                               4


   Office Modernization                          5


   Internship Program                            6


   Legislative and Policy Matters                6


Audit Activities                                 9


   Financial Audits                             10


   Performance Audits                           14


   Universal Service Fund (USF) Oversight       17


Investigations                                  23


   Activity During this Period                  25


   Significant Investigative Case Summaries     26


   OIG Hotline                                  28


Reporting Requirements of the
Inspector General Act                           30


   OIG Reports with Questioned Costs            33


   OIG Reports with Recommendations that        34
   Funds Be Put To Better Use


                                              Table of Contents - March 2007   1
              introduction
                The Federal Communications Commis-              In response to requests by the Inspector

                sion (FCC) is an independent regulatory         General, Chairman Martin provided five

                agency, which was delegated authority by        professionals on detail from other FCC

                Congress to regulate interstate and foreign     offices to assist with the IG’s increasingly

                communications by television, satellite,        heavy workload. In addition, Chairman

                wire, radio and cable. The FCC’s jurisdic-      Martin authorized outside hiring author-

                tion covers the fifty States, the District of   ity to provide for permanent increases in

                Columbia and all U.S. territories.              the Inspector General’s staff. Principal as-

                                                                sistants to the IG are: Jon R. Stover, Depu-

                The FCC consists of a Chairman and four         ty Inspector General; David L. Hunt, As-

                Commissioners, who are appointed by             sistant Inspector General (AIG) for Inves-

                the President and confirmed by the Unit-        tigations/General Counsel; Curtis Hagan,

                ed States Senate. Kevin J. Martin serves        AIG for Audits; William A. Hill, Jr., AIG

                as Chairman. Michael J. Copps, Jonathan         for Universal Service Fund Oversight;

                S. Adelstein, Deborah Taylor Tate and           Thomas Cline, AIG for Policy and Plan-

                Robert M. McDowell serve as Commis-             ning; and Harold Shrewsberry, AIG for

                sioners. Most of the FCC’s employees are        Management.

                located in Washington, D.C. at the Por-

                tals II building, which is located at 445       This semiannual report includes the ma-

                12th St., S.W., Washington, D.C. 20554.         jor accomplishments and activities of the

                FCC field offices and resident agents are       OIG during the period from October 1,

                located throughout the United States.           2006 through March 31, 2007, as well as

                                                                relevant information on the OIG’s goals

                The Inspector General (IG), Kent R. Nils-       and future plans.

                son, reports directly to the Chairman.

                The Office of Inspector General (OIG, or

                Office) staff consists of 21 professionals.


2   Introduction - March 2007
OIG Management
    Activities
           staffing

     office modernization

     internship program

  legislative & Policy matters
             OIG Management Activities
                        Office Staffing                         ever, have not been provided through the

                                                                legislative process although they were

               Additional personnel, as well as funding to      recommended by the Chairman and in-

               support the work of the Office, are essential    cluded in the President’s budget.        For

               to meeting the objectives of the Inspector       FY2008, we have requested additional

               General Act and fulfilling the responsibili-     staff positions and other resources. The

               ties that are contained in section 0.13 of the   Chairman has also supported this request

               Commission’s rules. Even so, it has been         and the Office of Management and Bud-

               possible to make progress because of the         get included a request for $20.4 million

               willingness of the Chairman and his staff        and 19 FTE staff positions in the Presi-

               to support the work of this Office. When         dent’s 2008 budget request. That request

               the IG was appointed in January 2006,            includes additional auditors, investiga-

               the Office had 10 professional employ-           tors, attorneys and information technol-

               ees. There are now 21 professionals and 2        ogy specialists due to a dramatic growth

               support personnel. Of the 23 employees           in investigative activities.      Chairman

               presently in the office, 20 have joined the      Martin has also supported this request.

               office since January 2006. With each addi-

               tion, the professional training, experience      Our staff consists of well-trained, seasoned

               and personal commitment to eliminating           professionals, most of whom have one or

               fraud, waste and abuse has increased.            more professional certifications. We sup-

                                                                port the efforts of our staff to expand their

               As we have previously reported, the IG           bodies of knowledge and professional rec-

               requested 16 additional staff positions to       ognition, and the Chairman has funded

               support and perform quality assurance            examination preparation for the Certified

               for audits in the Universal Service Fund         Public Accountant and Certified Informa-

               (USF) area in the OIG’s fiscal year 2007         tion System Security Professional desig-

               budget request. These resources, how-            nations and other training opportunities.


4   OIG Management Activities - March 2007
               OIG Management Activities
In our continuing efforts to increase the ex-   of 19” flat screen monitors for spreadsheets

pertise of our audits and investigative staff, and installation of a new printer and dig-

members of this office have also attended ital transmitter. The IG is purchasing e-

training at the Inspector General Criminal      mail security software to enable investiga-

Investigative Academy, other Federal In-        tors to send secure e-mails and documents

spector General training events, master’s       through networks, and create security

level classes at colleges and universities,     folders with access limited to pre-identi-

and other technical seminars. In addition,      fied users. We are also planning to pur-

we have used our professional expertise chase a knowledge management system in

to revitalize the FCC’s professional train-     2008. This system is designed to leverage

ing for its Certified Public Accountants. an integrated relational database to the

                                                controlled sharing of information among

    Office Modernization                        OIG personnel. The table-based design

                                                will permit dynamic modifications to the

We reported in the last semiannual report       application, thereby facilitating control of

that the IG had decided to modernize the        both the content and the order of items dis-

technological capability of the Office to       played in drop-down lists. The Inspector

insure that the OIG is prepared to process      General intends to implement this system

and manage the volume of audits and in-         to improve the Office’s management of au-

vestigations planned for the USF, other OIG     dits, investigations, inspections, surveys,

audit areas, and an increasing number of and special studies, and to facilitate prep-

investigations. We reported on new equip-       aration of the semiannual report to Con-

ment procurements and the assessment of         gress by both field and resident personnel.

new management information systems.



The modernization of the OIG’s technology

resources continues with the deployment


                                                               OIG Management Activities - March 2007   5
             OIG Management Activities
                       Internship program                    formance that, in part, has reflected their

                                                             youth, exuberance, and special skills.

               The OIG welcomes college interns during

               the fall, spring and summer semesters.                    legislative &
               Most of these students take their intern-              policy matters
               ships for credit. Recent interns have come

               from schools across the country including Pursuant to section 4(a)(2) of the Inspector

               American University, Arizona State Uni-       General Act of 1978, 5 U.S.C.A. App. as

               versity, DePauw University, Georgetown amended (IG Act), our Office monitors and

               University, Hamilton College, James Mad-      reviews existing and proposed legislative

               ison University, Long Island University, and regulatory items from the perspective

               North Carolina State University, Purdue of their impact on the OIG and the FCC’s

               University, the University of California at   programs and operations. Specifically, we

               Berkeley, the University of California at     perform this activity to evaluate the poten-

               Irvine, the University of Maryland Law tial of new legislation to encourage econo-

               School, the University of North Carolina, my and efficiency while helping to reduce

               and Xavier University.                        fraud, waste, abuse, and mismanagement.



               These internships have proven to be re-       The Office continued to monitor legislative

               warding experiences for all participants.     activities affecting the activities of the OIG

               Students leave with a good understand-        and the FCC during this period. The Of-

               ing of how a government agency oper-          fice specifically monitored over a hundred

               ates, and they have the opportunity to        bills introduced in the 1st session of the

               encounter challenges while enjoying the       110th Congress, which directly or indirectly

               rewards that can come from public ser-        affect the ability of Designated Federal En-

               vice.    In turn, the Office has benefited    tity IGs to function independently and ob-

               from the students’ excellent work per-        jectively. Of particular interest to the Office


6   OIG Management Activities - March 2007
              OIG Management Activities
is Senate Bill No. 680, the “Accountability   vides input as appropriate. In particular,

in Government Contracting Act of 2007,”       this Office has commented on policy and

which, if enacted, would impose substan-      procedural matters that directly relate to

tial contracting and acquisition reforms.     audit and oversight of agency functions

Similar bills have been introduced in the     and programs. The Office has frequently

House of Representatives. This Office is      been consulted by the FCC’s management,

closely monitoring and evaluating H.R.        operating bureaus, and other offices for its

928 and H.R. 1362, which contain many insights, opinions and expertise. During

of the same objectives of Senate Bill No. the reporting period, we commented exten-

680. The Office is also closely monitoring    sively on proposed rules that will substan-

numerous bills that have been introduced      tially improve the operation of the Univer-

to revamp and streamline the administra-      sal Service and Telecommunications Relay

tion of the Universal Service Fund (USF).     Funds. We also reviewed and comment-

                                              ed on agency directives for performance

In addition, the OIG continuously moni-       measurement initiatives and volunteer/

tors FCC policy development and pro-          community service by agency employees.




                                                             OIG Management Activities - March 2007   7
audit Activities

          financial audits

        performance audits

universal service fund (USF) oversight
              audit activities
                                               financial audits

                 Financial audits provide reasonable as-       cordance with government auditing stan-

                 surance as to whether the agency’s finan-     dards issued by the Comptroller General

                 cial statements are presented fairly in all   of the United States. Under a contract

                 material respects. Other objectives of fi-    supervised by the IG, Clifton Gunderson

                 nancial audits are assessment of the inter-   LLP (CG-LLP), an independent certified

                 nal controls over transaction processing      public accounting firm, performed the

                 for accurate financial reporting and as-      audit of the FCC’s FY 2006 consolidated

                 sessment of compliance with applicable        financial statements in accordance with

                 laws and regulations.                         the aforestated standards; OMB Bulletin

                                                               No. 06-03, Audit Requirements for Feder-

                  Audit of the Federal Communications          al Financial Statement, amended; and ap-

                  Commission Fiscal Year 2006 Consoli-         plicable sections of the U.S. Government

                        dated Financial Statements             Accountability Office (GAO)/President’s

                   (Report No. 06-AUD-06-03 issued on          Council on Integrity & Efficiency (PCIE)

                            November 15, 2006)                 Financial Audit Manual.



                 In accordance with the Accountability of      We transmitted the final audit report pre-

                 Tax Dollars Act of 2002, the FCC prepared     pared by Clifton Gunderson LLP and

                 consolidated financial statements for the     dated November 1, 2006 to the Commis-

                 2006 fiscal year in accordance with Office    sion’s management. The financial audit

                 of Management and Budget (OMB) Cir-           report included an unqualified opinion

                 cular A-136, Financial Reporting Require-     on the financial statements, a report on

                 ments. The Chief Financial Officers Act of    internal controls and a report on the Com-

                 1990 (CFO Act), as amended, requires the      mission’s compliance with certain laws

                 FCC IG, or an independent external au-        and regulations. In general, Commission

                 ditor selected by the Inspector General,      management agreed with the findings

                 to audit FCC financial statements in ac-      and recommendations contained in those
10   Audit Activities - March 2007
                                              audit activities
reports. The highlights of each report        relatively low level the risk that misstate-

have been summarized below.                   ments in amounts that would be material

                                              in relating to the financial statements may

    Independent Auditor’s Report on           occur and not be detected within a timely

          Internal Control over               period by the employees in the normal

           Financial Reporting                course of performing their assigned func-

                                              tions.

In performing its testing of internal con-

trols necessary to achieve the objectives     Clifton Gunderson identified reportable

in OMB Bulletin No. 06-03, Clifton Gun-       conditions concerning the Agency’s need

derson LLP identified matters relating to     to:

significant deficiencies in the design or      •Improve financial reporting

operation of the FCC’s internal controls       •Enhance cost accounting functionality

that, in its judgment, could adversely af-     •Improve component entities’ financial

fect the FCC’s ability to record, process,     reporting controls

summarize, and report financial data           •Improve controls over payroll and per-

consistent with the assertions by manage-      sonnel activities

ment in the financial statements. These        •Fully implement the requirements of

matters were categorized as reportable         the Debt Collection Improvement Act

conditions as defined by the American          •Strengthen oversight of the component

Institute of Certified Public Accountants.     entities’ activities

Clifton Gunderson did not consider any         •Comply with OMB Circular No. A-130,

of the reportable conditions to be mate-       Requirement for a Comprehensive Secu-

rial weaknesses. Material weaknesses are       rity Plan

reportable conditions in which the design

or operation of one or more of the internal

control components does not reduce to a


                                                                        Audit Activities - March 2007   11
              audit activities
                     Independent Auditor’s Report on           follows:

                          Compliance with Laws                 •OMB Circular No. A-127, Financial

                             and Other Matters                 Management Systems

                                                               •OMB Circular No. A-129, Polices for

                 Commission management is responsible          Federal Credit Programs and Non-Tax

                 for complying with laws and regula-           Receivables

                 tions applicable to the agency. To obtain     •Debt Collection Improvement Act of

                 reasonable assurance about whether the        1996

                 Commission’s financial statements are

                 free of material misstatements, Clifton         Report on Special-Purpose Financial

                 Gunderson performed tests of compli-                        Statements and

                 ance with certain provisions of laws and              Agreed-Upon Procedures

                 regulations to ascertain if a noncompli-

                 ance existed that could have a direct and     During this reporting period, we also

                 material effect on the determination of       transmitted final reports covering the

                 financial statement amounts, and certain      Commission’s FY 2006 special-purpose

                 other laws and regulations specified in       financial statements and the agreed-upon

                 OMB Bulletin No. 06-03. As appropri-          procedures report covering the Commis-

                 ate, Clifton Gunderson limited its tests of   sions’ FY 2006 Federal intragovernmental

                 compliance to these provisions and did        activity and balances. Clifton Gunderson

                 not test compliance with all laws and reg-    performed the engagements and we mon-

                 ulations applicable to the Commission.        itored their efforts to ensure compliance

                                                               with Government Auditing Standards

                 Clifton Gunderson’s tests disclosed in-       and other standards, as applicable. The

                 stances of noncompliance with specific        Commission earned an unqualified opin-

                 laws and regulations required to be re-       ion on its special-purpose financial state-

                 ported under Government Auditing              ments. The auditor’s report disclosed no

                 Standards and OMB Bulletin No. 06-03 as       material weaknesses in internal control
12   Audit Activities - March 2007
  audit activities
over the financial reporting process for the

statements and no instances of non-com-

pliance. The purpose of the intragovern-

mental activity and balances report was to

compare and identity differences between

the Commission’s reconciliation of intra-

governmental transactions with its trading

partners and the Commission’s audited fi-

nancial statements for FY 2006. This report

was provided to the U.S. Department of

Treasury’s Financial Management Service

and the U.S. Government Accountability

Office (GAO) as required by statute.




                           Audit Activities - March 2007   13
              audit activities
                                            Performance audits
                Performance audits are systematic exam-        by telephone customers through their

                inations that are conducted to assess the      monthly telephone bills. This program

                performance of a government program,           has not been subject to a comprehensive

                activity, or function so that corrective ac-   programmatic oversight audit by this Of-

                tion can be taken, if appropriate. Perfor-     fice. In addition, the Commission has not

                mance audits include audits of govern-         been able to calculate the estimated per-

                ment contracts and grants with private         centage of erroneous payments for the

                sector organizations, as well as govern-       TRS program.

                ment and non-profit organizations, that

                determine compliance with contractual          The IG initiated a series of audits that

                terms, Federal Acquisition Regulations         will provide the Commission and the IG

                (FAR), and internal contractual adminis-       with an independent and comprehen-

                tration.                                       sive examination and assessment of the

                                                               FCC’s TRS program administration and

                    Telecommunications Relay Service           TRS provider compliance with 47 CFR §§

                                                               64.601 - 64.605.

                The Telecommunications Relay Services

                (TRS) program became effective on July         We completed a risk assessment of the

                26, 1993, as an interstate cost recovery       FCC’s TRS oversight requirements, pro-

                plan to reimburse telecommunications           gram management functions, and the

                common carriers for providing telephone        operations of the TRS administrator in

                voice relay translation services within the    2006.   Subsequently, we commenced a

                areas in which they offer voice services.      program of comprehensive audits of cer-

                Approximately $470 million are contrib-        tified claims for payment from TRS pro-

                uted annually to a dozen providers by          viders. This involves audits of support-

                2,800 common carriers which are paid           ing documentation and other evidence at


14   Audit Activities - March 2007
                                             audit activities
NECA and service providers to determine      a significant portion of our resources on

whether improper reimbursements may          auctions as a specific area of audit inter-

have been made as a result of incorrect      est.

session minutes and/or reimbursement

rates. The results of this audit program     In fiscal year 2007, we initiated a risk as-

will determine the existence and extent of   sessment of the auction program. The

any improper payments and also support       objectives of this assessment are to iden-

the basis for recovery of any improper       tify and catalog processes for: (i) admin-

payments.                                    istering the auction program; (ii) assess-

                                             ing associated vulnerabilities and risks;

                Auctions                     and (iii) determining whether the written

                                             policies, procedures and controls for mit-

The FCC has conducted auctions of li-        igating risks are sufficient. The opinions

censes for electromagnetic spectrum since    obtained from this risk evaluation will be

1994. These auctions are open to any eli-    used to determine whether additional au-

gible company or individual that submits     dits targeted to specific risk areas within

an application and required up-front         the Auctions Program are necessary or

payment, and is found to be a qualified      desirable.

bidder by the Commission. FCC auctions

are conducted electronically and are ac-        Purchase and Travelers Credit Card

cessible over the Internet. The Auctions                     Programs

and Spectrum Access Division within the

FCC Wireless Telecommunications Bu-          An audit of the Purchase and Travelers

reau (WTB) leads the FCC auctions pro-       Credit Card programs within the FCC

gram. Extensive coordination with other      auctions program is in progress. The ob-

divisions of the FCC is required. The OIG    jectives of the audit are: (1) to determine

has audited several auctions functions       whether the Purchase and Travelers Cred-

over the years, but we have yet to focus     it Card programs within the FCC auctions
                                                                       Audit Activities - March 2007   15
              audit activities
                 program are operated in accordance with

                 prudent managerial principles; and (2) to

                 assess the effectiveness of WTB’s internal

                 controls over the Purchase and Travelers

                 Credit Card programs within the auc-

                 tions program.



                        Universal Licensing System



                 The Universal Licensing System (ULS) is

                 a system used by the Wireless Telecom-

                 munications Bureau (WTB) to process

                 hundreds of thousands of license appli-

                 cations annually. It has simplified the ap-

                 plication and licensing processes and is

                 intended to provide secure, world-wide

                 access through the Internet. An audit

                 of application controls over ULS intake,

                 processing, storage, and reporting of data

                 is in progress.




16   Audit Activities - March 2007
                                                 audit activities
             Universal Service Fund (USF) oversight
Beginning with the Inspector General’s           with the Improper Payments Improve-

semiannual report for the period ending          ment Act of 2002, Public Law No. 107-

March 31, 2002, the IG has included a sec-       300. It is the Inspector General’s expec-

tion that covers the Office’s efforts to over-   tion that statistical analyses will improve

see the Universal Service Fund (USF). In         the application of investigative and audit

the last semiannual report, we stated that       resources and yield information to the

this Office has initiated an unprecedent-        Commission that will enable it to improve

ed audit effort of USF programs includ-          the administration of these programs and

ing the Schools and Libraries, High Cost,        further reduce fraud, waste and abuse.

Rural Health Care and Low Income pro-

grams as well as audits of contributors to       Our involvement in contributor and ben-

the USF fund. In this section, we provide        eficiary audits and investigations has

an update on our oversight activities and        not lessened our concerns about fraud,

on audits being conducted by other Fed-          waste, and abuse in USF programs. We

eral Offices of Inspector General on our         remain committed to meeting our statu-

behalf. We also summarize related sig-           tory responsibility to provide effective,

nificant investigative activity.                 independent oversight of all aspects of

                                                 the USF program.      We believe we are

For the first time, all of these programs        making significant progress toward our

and sources of revenue, have been sub-           goal of achieving an effective oversight

ject to random statistical sampling and          program.    Additional audit, investiga-

attest audits to determine whether these         tive, and legal resources will facilitate

programs comply with the Commission’s            achieving that objective and we accord-

rules and regulations. In addition, the          ingly request Congressional approval of

sampling methodologies and attest audit          the funding requests that are before it.

protocols were also developed to instan-

tiate an assessment program consistent

                                                                           Audit Activities - March 2007   17
              audit activities
                   Update on OIG Oversight Activities         of audits through project plans; and 3)

                                                              tracking of audit milestones and Earned

                As of March 31, 2007, we are making sig-      Value Management reports.

                nificant progress on the 460 audits initi-

                ated during the prior reporting period.       We have also developed an audit sam-

                Audit fieldwork is complete for over 90%      pling design to determine an error rate

                of the audits and draft audit reports are     for improper payments in each of the

                now being reviewed by four quality as-        four universal service programs and to

                surance firms, our Office and the Uni-        determine whether contributors are prop-

                versal Service Administrative Company         erly charged for their USF contributions.

                (USAC). All initial draft reports are to      USAC, in coordination with its contracted

                be submitted by April 30, 2007 and final      statistician from George Mason Univer-

                reports are scheduled to be completed         sity and the FCC OIG statisticians, con-

                by July 31, 2007. To ensure that the July     tinue to work with accounting firms and

                31, 2007, deadline is met, we encouraged      the OIG to execute the statistical design

                USAC to develop their program manage-         as planned and deliver the error rate for

                ment capabilities to increase the probabil-   improper payments. Additionally, statis-

                ity that the audits will be completed as      tical data concerning compliance or non-

                scheduled. As a result, USAC established      compliance with FCC rules, along with

                a Project Management Office (PMO) with        the reasons for non-compliance will be

                a Chief Operations Officer.     The PMO       collected, analyzed and used to improve

                function was outsourced to a professional     USF programs, contributions andthe au-

                program management consulting firm            dit process.

                under the direction of USAC and subject

                to our oversight. The PMO developed a         As this new initiative unfolds, the OIG

                web-based data management system that         and USAC continue to review and fi-

                provides: 1) web access for remote audit      nalize KPMG’s previous audits of the

                data input by each firm; 2) management        Schools and Libraries program. To date,
18   Audit Activities - March 2007
                                                   audit activities
we have finalized 95 of the 100 audits.           not complied with the Commission’s

We reviewed and released 44 audit re-             rules. These audits also enable us to rec-

ports in this reporting period that identi-       ommend changes to the FCC’s manage-

fied $59,478,152 of apparently improper           ment that will help to ensure that neces-

payments that were made in the Schools            sary controls to promote efficiency and to

and Libraries program. The process of at-         prevent fraud, waste, and abuse will be

tempting to recover these funds is under-         instantiated. A summary of the types of

way.                                              findings most frequently encountered in

                                                  these audits are described in Table I be-

These audits identified several areas in          low:

which beneficiaries of USF funds have



                        Table I: Summary of E-rate Audit Findings

 Program Area           Related Finding

                        The beneficiary did not have proper approval for its budget or an
 Technology Budget      adequate amount budgeted for its share of the non-discounted costs.

 Equipment              Equipment missing, not installed, no asset lining maintained, etc.
                        Beneficiary incorrectly calculated its discount percentage, could not
                        support the discount, or could not provide documentation to verify
 Discount Calculation
                        information on the FCC Form 471.
 FCC Form 472/474
                        Errors in amounts for reimbursement, inadequate support, etc.
 Items
 Children’s Internet
                        Beneficiary did not comply with the Children’s Internet Protection Act.
      Protection Act
 Service Provider
                        Bills not properly prepared or inaccurate.
 Billing
                        Beneficiary did not maintain the required documentation or
 Document Retention     documentation was non-existent.
                        Beneficiary did not have an approved technology plan, technology plan
 Technology Plans
                        was outdated, etc.

 Ineligible Items       Beneficiary was reimbursed for ineligible products or services.

                        Beneficiary did not submit a Form 500 to USAC when the commitment
 FCC Form 500
                        was not fully utilized.




                                                                                 Audit Activities - March 2007   19
              audit activities
                Table II is a list of the 44 E-rate audit reports issued by this office between October 1,
                2006 and March 31, 2007.

                   Table II: E-rate Audit Reports Issued                                      Potential
                                                                                              Improper
                                       Beneficiary                             Location
                                                                                              Payment
                   Fontana Unified School District                        Fontana, CA                    $0
                   Advance Education Services                             Colton, CA               $177,665
                   Los Angeles Unified Public Schools                     Los Angeles, CA           $15,778
                   Municipal Telephone Exchange                           Baltimore, MD            $668,581
                   Orange County School District                          Orlando, FL              $112,500
                   Yonkers Public School District                         Yonkers, NY                    $0
                   Brownsville Independent School District                Brownsville, TX           $24,030
                   Fresno Unified School District                         Fresno, CA                     $0
                   Florida Information Resource Network                   Tallahassee, FL            $2,096
                   Kayenta Unified School District 27                     Kayenta, AZ              $497,914
                   Miami-Dade County Public Schools                       Miami, FL                  $9,105
                   United ISD                                             Laredo, TX                     $0
                   South San Antonio Independent School District          San Antonio, TX           $16,195
                   Saginaw Public School District                         Saginaw, MI                $6,086
                   Detroit Public School District                         Detroit, MI               $16,144
                   Laredo Independent School District                     Laredo, TX                     $0
                   Pharr - San Juan - Alamo Independent School District   San Juan, TX           $3,135,350
                   Boston School District                                 Boston, MA                     $0
                   School Board of Broward County, Florida                Sunrise, FL                    $0
                   Boston, Dept of Neighbor Development                   Boston, MA                     $0
                   Montgomery County School District                      Montgomery, AL         $1,110,077
                   Buffalo City School District                           Buffalo, NY               $58,647
                   South Carolina Division of the State CIO               Columbia, SC                   $0
                   Paramount Unified School District                      Paramount, CA                  $0
                   Central ISLIP Union Free District                      Central Islip, NY        $445,543
                   Robstown Independent School District                   Robstown, TX             $128,252
                   Brooklyn Public Library                                Brooklyn, NY               $5,806
                   Camden City Public Schools                             Camden, NJ                     $0
                   Teach Wisconsin                                        Madison, WI                    $0
                   Tucumcari                                              Tucumcari, NM            $400,500
                   Trenton City School District                           Trenton, NJ            $1,405,419
                   Illinois State Board of Education                      Springfield, IL          $109,952
                   Boston Public Library/MBLN                             Boston, MA               $484,894
                   Milwaukee Public Schools                               Milwaukee, WI            $211,702
                   Georgia State Department of Education                  Atlanta, GA                    $0
                   Jackson Public School District                         Jackson, MS              $343,315
                   Premont Independent School District                    Premont, TX              $201,259
                   St. Paul Public School District 625                    St. Paul, MN              $73,012
                   Kansas City School District                            Kansas City, MO                 0
                   Bridgeport School District                             Bridgeport, CT           $136,313
                   St. Louis City School District                         St. Louis, MO            $191,595
                   Garvey Elementary School District                      Rosemead, CA             $181,634
                   New York City Department of Education                  New York, NY          $48,330,341
                   Brevard County School District                         Viero, FL                $978,447
                   Total Potential Improper Payments                                            $59,478,152

20   Audit Activities - March 2007
                                              audit activities
In June 2003 the OIG received a referral                  Audits Conducted

from the Government Accountability Of-                 by Other Federal OIGs

fice’s Fraud Net requesting that an inqui-

ry be conducted of the Brevard County         On January 29, 2003, the IG executed a

School District (BCSD) based on an alle-      Memorandum of Understanding (MOU)

gation of waste of government funds un-       with the Department of the Interior (DOI)

der the E-Rate Program. BCSD is locat-        IG. This MOU was a three-way agree-

ed in Brevard County in central Florida.      ment among the FCC Managing Director,

During November, 2003, the IG received        DOI IG, and USAC for audits of schools

a letter from a Florida State Representa-     and libraries funded by the Bureau of In-

tive requesting an investigation of allega-   dian Affairs and other universal service

tions of misrepresentation in applications    support beneficiaries under the audit

made to the E-Rate Program for Federal        cognizance of the DOI OIG. Under the

funding.   In addition, USAC received         agreement, auditors from DOI OIG per-

several “hotline calls” from a variety of     formed audits for USAC and the FCC

sources with similar allegations.             IG. In addition to audits of schools and

                                              libraries, the agreement authorizes the

In response to the referral and inquiries,    DOI IG to consider requests for investiga-

the OIG completed an audit of the BCSD,       tive support on a case-by-case basis. DOI

which was issued in October 2006. The         OIG has submitted two audits to the IG.

audit resulted in six findings and identi-    One was an audit of the Bureau of Indian

fied $978,447 in potential fund recover-      Affairs (BIA) and the other was an audit

ies. We recommended that the Wireline         of the Virgin Islands Department of Edu-

Competition Bureau direct USAC to re-         cation (VIDOE). We have issued draft re-

cover the improperly disbursed $978,447.      ports and received comments on the draft

USAC has concurred with our recom-            reports for these audits. The VIDOE re-

mendation and collection efforts are un-      port will not be issued at this time. The

derway.                                       final report on the BIA audit is still under

                                                                        Audit Activities - March 2007   21
              audit activities
                 review.                                        payments.



                 We have also established a working rela-               Support to Investigations

                 tionship with the Office of Inspector Gen-

                 eral at the Education Department (Edu-         In addition to the audit component of our

                 cation OIG). During January 2004, the          oversight program, we have provided,

                 Education OIG presented a plan for au-         and continue to provide, audit and inves-

                 diting telecommunication services at the       tigative support to Federal investigations

                 New York City Department of Education          of E-rate recipients and service providers.

                 (NYCDOE). Because of the significant           To implement the investigative compo-

                 amount of E-rate funding for telecom-          nent of our plan, we developed a working

                 munication services at NYCDOE, Educa-          relationship with the Antitrust Division of

                 tion OIG has proposed that they be reim-       the Department of Justice (DOJ). The An-

                 bursed for this audit under a three-way        titrust Division, in turn, has established a

                 MOU similar to the existing MOU with           task force to conduct USF investigations

                 DOI OIG. We received USAC comments             that is comprised of attorneys in each of

                 on the draft report in January, 2007 and is-   the Antitrust Division’s seven field offices

                 sued the report during March, 2007. The        and the National Criminal Office. As of

                 audit disclosed that NYCDOE could not          the end of this reporting period, we are

                 provide supporting documentation for           directly supporting 28 investigations and

                 $47,755,360 of the E-Rate funds disbursed      monitoring an additional 3 investigations.

                 during the period under audit. The audit       Please refer to the Investigations section

                 also disclosed $536,800 paid for ineligible    of this report for further information.

                 telecommunications services and $38,181

                 paid for telecommunications services for

                 ineligible entities. USAC has been direct-

                 ed to initiate recovery of any improper


22   Audit Activities - March 2007
investigations

      activity during this period

significant investigative case summaries

              oig hotline
              investigations
                Investigations pursued by this office are       lead to criminal or civil prosecution, or

                frequently initiated as a result of allega-     administrative action, or all of the forego-

                tions received through the OIG hotline, or      ing.

                from FCC managers and employees who

                contact the OIG directly. Allegations can       The OIG also receives complaints from

                be, and frequently are, made anonymous-         the general public, both private citizens

                ly. Investigations may also be predicated       and commercial enterprises, about the

                upon audit or inspection findings of fraud,     manner in which the FCC executes its pro-

                waste, abuse, corruption, or mismanage-         grams and conducts its oversight respon-

                ment by FCC employees, contractors,             sibilities. All complaints are examined

                and/or subcontractors or through refer-         to determine whether there is any basis

                rals from other governmental agencies.          for OIG audit or investigative action. If

                                                                nothing is alleged that is within the juris-

                The OIG works directly with Federal             diction of the IG, the complaint is usually

                criminal authorities, supporting either         referred to the appropriate FCC bureau

                their investigations or having these agen-      or office for response directly to the com-

                cies support this office with resources un-     plainant. The OIG continues to serve as

                available within the FCC. Upon receiving        a facilitator with respect to responses to

                an allegation of an administrative, civil, or   complaints that are outside the jurisdic-

                criminal violation, the OIG usually con-        tion of this office. Finally, matters may

                ducts a preliminary inquiry to determine        be referred to this office for investigative

                if an investigation is warranted. Investi-      action from other governmental entities,

                gations may involve possible violations         such as the Government Accountability

                of Federal regulations regarding employ-        Office, the Office of Special Counsel, and

                ee responsibilities and conduct, Federal        various congressional offices.

                criminal law, and other regulations and

                statutes pertaining to the activities of the    As reported in the previous semiannual

                Commission. Investigative findings may          report, this office has been working to ad-
24   Investigations - March 2007
                                                  investigations
dress an upsurge in cyber crime investi-       Service Fund (USF) program and have

gations. This trend has continued, and is      been referred to the Federal Bureau of In-

absorbing substantially more investiga-        vestigation (FBI) and/or the Department

tive resources. This upsurge, as well as an    of Justice. An additional twenty (20) non-

increasing number of investigations like-      USF and four (4) USF related complaints

ly to result from the thriteen-fold increase   were received during the current report-

in USF audits that are being conducted,        ing period.    Over the last six months,

highlights the budgetary needs for the         twenty-one (21) cases, ten (10) USF and

$20.4 million and staff positions referred     eleven (11) non-USF related, have been

to in this, and previous reports.              closed. A total of sixty-one (61) cases are

                                               pending, of which thirty-one (31) relate to

In addition to the foregoing, the OIG          the USF program. The OIG continues to

continues to coordinate and provide as-        monitor, coordinate and/or support activ-

sistance to Federal civil and law enforce-     ities regarding those thirty-one (31) inves-

ment entities, as well as to state and local   tigations. The investigations pertaining

authorities, with respect to investigations    to the pending thirty (30) non-USF cases

pertaining to infractions within the Uni-      are ongoing.

versal Service Fund program of the Com-

mission. These efforts led to the success-
                                                               Statistics
ful prosecution of the first criminal E-Rate
                                               Cases Pending as of                    58
trial in February.                             September 30, 2006
                                               New Cases                              24

        activity during                        Cases Closed                           21

            this period                        Cases Pending as of March 31,          61
                                               2006

Fifty-eight (58) cases were pending from

the prior period. Thirty-seven (37) of those

cases involve the Commission’s Universal
                                                                            Investigations - March 2007   25
              investigations
                         Significant case                       ever was successfully concluded. The jury

                             summaries                          in a Federal court, before the Honorable

                The investigation that the IG initiated re-     Judge Crane, in McAllen, Texas convicted

                garding allegations of inappropriate con-       Rafael G. Adame, president and owner of

                duct by individuals at the FCC, past and        ATE Tel Solutions, Inc., on seven counts

                present, concerning the possible destruc-       of wire fraud in a scheme to defraud the

                tion and/or suppression of draft studies        E-rate program. Adame was convicted

                or reports regarding localism and media         of submitting false invoices for payment

                ownership continues. Additional resourc-        over a multi-year period. These monies

                es, both in terms of personnel and mate-        were to benefit the Weslaco Independent

                rial, were requested by the IG specifically     School District. The trial was conducted

                to support this investigation. The Chair-       by the Department of Justice, Antitrust

                man provided those resources, allowing          Division out of Dallas. A sentencing hear-

                this Office the means by which to address       ing is currently scheduled for July 2007.

                the many issues raised by Senators Barba-

                ra Boxer, Byron Dorgan, and Ron Wyden,

                as well as the inquiries from Members           During this period, the OIG continued

                of Congress Grace Napolitano, Xavier            an investigation regarding the complaint

                Becerra, David Price, Maurice Hinchey,          process within the FCC. Specifically, the

                and Michael R. McNulty, to name a few.          Assistant Inspector General for Investiga-

                In general, localism addresses the issue of     tions is looking into the computer sup-

                whether locally-owned television or radio       port and management of software devel-

                stations produce more local news. Media         opment. Complaints from the public that

                ownership addresses, generally, multiple        come into the FCC are typically the first

                media ownership concentration in mar-           contact that complainant has had with the

                ket-defined outlets.                            FCC. To the public at large, this is their

                                                                first interaction with the FCC and it is crit-

                In February 2007, the first E-Rate jury trial   ical that the process be easy to understand
26   Investigations - March 2007
                                                 investigations
and that all complaints are addressed in a    an inquiry into allegations of cyber at-

fair and timely manner.                       tacks upon FCC personnel from outside

                                              the Commission.      One such attack in-

                                              volved the distribution of private, non-

The Assistant Inspector General for In-       public information of an FCC employee.

vestigations continues to monitor devel-      This office coordinated with the Depart-

opments resulting from the restraining        ment of Homeland Security and various

order issued to halt the unfair business      State agencies, and was able to officially

practices of an online check processing       close this investigation.

firm. The online firm allowed checks to

be created and sent to any bank account

without verifying that the customer had       In February 2007, Richard E. Brown and

the authority to write checks drawn on        Keith J. Madeiros, former account man-

that account. The FCC, and several other      agers for Southwestern Bell Communica-

Federal agencies, had to fend off multiple    tions, pleaded guilty in the U.S. District

attempts to procure Federal monies via        Court in Harford, Connecticut, to three

this online activity.                         counts and one count, respectively, of

                                              mail fraud in connection with a scheme

                                              to defraud the E-rate program by submit-

During this period, the Assistant Inspec-     ting false invoices. Both men are awaiting

tor General for Investigations initiated an   sentencing.

inquiry into an allegation that a file from

the FCC’s Reference Room could not be

located. This investigation is ongoing.       During this period, the Assistant Inspector

                                              General for Investigations concluded an

                                              inquiry into a harassment allegation from

During this period, the Assistant Inspec-     within the FCC. Harassing letters were

tor General for Investigations concluded      left at odd hours for one FCC employee.
                                                                          Investigations - March 2007   27
              investigations
                During the investigation, statements were                    OIG HOTLINE
                taken from numerous sources.           Based

                upon those statements, the investigation         During this reporting period, the OIG Ho-

                was officially closed.                           tline technician received numerous calls

                                                                 to the published hotline numbers of (202)

                                                                 418-0473 and 1-888-863-2244 (toll free).

                In the previous reporting period, the IG         The OIG Hotline continues to be a vehi-

                described an inquiry into allegations of         cle by which Commission employees and

                procurement fraud involving an FCC em-           parties external to the FCC can contact the

                ployee. This inquiry resulted in a criminal      OIG to speak with a trained Hotline tech-

                fraud referral to the Federal Bureau of In-      nician. Callers who have general ques-

                vestigation, but we have not received fur-       tions or concerns not specifically related

                ther updates. We will continue to monitor        to the missions or functions of the OIG

                this referral until the statute of limitations   office are referred to the FCC Consumer

                expires.                                         Center at 1-888-225-5322. In addition, the

                                                                 OIG also refers calls that do not fall with-

                In the previous reporting period, the IG         in its jurisdiction to other entities, such as

                described an inquiry into allegations of         other FCC offices, Federal agencies and

                improper conduct by a Commission em-             local or state governments.        Examples

                ployee with respect to the possession of         of calls referred to the Consumer Center

                private information concerning a group           or other FCC offices include complaints

                of Commission employees. That inquiry            pertaining to customers’ phone service

                has yielded no additional probabtive in-         and local cable providers, long-distance

                formation. This investigation will be kept       carrier slamming, interference, or similar

                open until we finish working with Federal        matters within the program responsibility

                law enforcement agencies on this matter.         of other FCC bureaus and offices. Dur-

                                                                 ing this reporting period, we received 510

                                                                 Hotline calls. The majority of these calls
28   Investigations - March 2007
                                              investigations
were forwarded to the FCC Consumer

Center (284 calls) and the balance of calls

were referred to other Federal agencies,

primarily the Federal Trade Commission

(226 calls).



                               Hotline Calls Record
                        October 1, 2006 - March 31, 2007




                                                           FCC Consumer Hotline
                                                           Other Federal Agencies




                                                                     Investigations - March 2007   29
reporting requirements
         of the
 inspector general act
  reporting requirements of Section 5(a)

 table i: oig reports with questioned costs

table II: oig reports with recommendations
      that funds be put to better use
                         reporting requirements
The following summarizes the Office of Inspector General response to the 12 specific
reporting requirements set forth in Section 5(a) of the Inspector General Act of 1978, as
amended.

1. A description of significant problems, abuses, and deficiencies relating to the
administration of programs and operations of such establishment disclosed by such activities
during the reporting period.

Please refer to the Section of this report entitled “Universal Service Fund” on pages 17 through 22.

2. A description of the recommendations for corrective action made by the Office during
the reporting period with respect to significant problems, abused, or deficiencies identified
pursuant to paragraph (1).

Please refer to the Section of this report entitled “Universal Service Fund” on pages 17 through 22.

3. An identification of each significant recommendation described in previous semiannual
reports on which corrective action has not yet been completed.

No significant recommendations remain outstanding.

4. A summary of matters referred to authorities, and the prosecutions and convictions which
have resulted.

Please refer to the Section of this report entitled “Universal Service Fund” on pages 17 through 22
and “Investigations” on pages 23 through 29.

5. A summary of each report made to the head of the establishment under section (6) (b) (2)
during the reporting period.

No report was made to the Chairman of the FCC under section (6) (b) (2) during this reporting period.

6. A listing, subdivided according to subject matter, of each audit report issued by the Office
during the reporting period, and for each audit report, where applicable, the total dollar
value of questioned costs (including a separate category for the dollar value of unsupported
costs) and the dollar value of recommendations that funds be put to better use.

Each audit report issued during the reporting period is listed according to subject matter and described
in the “Audit Areas” section of this report.

7. A summary of each particularly significant report.

Each significant audit and investigative report issued during the reporting period is summarized
within the body of this report.

8. Statistical tables showing the total number of audit reports with questioned costs and the
total dollar value of questioned costs.

The required statistical table can be found at Table I to this report.



                                                                          Reporting Requirements - March 2007   31
              reporting requirements
                9. Statistical tables showing the total number of audit reports with recommendations that
                funds be put to better use and the total dollar value of such recommendations.

                The required statistical table can be found at Table II to this report.

                10. A summary of each audit report issued before the commencement of the reporting
                period for which no management decision has been made by the end of the reporting period
                (including the date and title of each such report), an explanation of the reasons why such a
                management decision has not been made, and a statement concerning the desired timetable
                for achieving a management decision on each such report.

                No audit reports fall within this category.

                11. A description and explanation of the reasons for any significant revised management
                decision made during the reporting period.

                No management decisions fall within this category.

                12. Information concerning any significant management decision with which the Inspector
                General is in disagreement.

                No management decisions fall within this category.

                13. Information described under section 05(b) of the Federal Financial Management
                Improvement Act of 1996.

                No reports with this information have been issued during this reporting period.




32   Reporting Requirements - March 2007
                  reporting requirements

  Table I: OIG Reports With Questioned Costs
Inspector General            Number of   Questioned      Unsupported
Reports With Questioned       Reports      Costs            Costs
Costs
A. For which no
management decision
has been made by the             _           _                 _
commencement of the
reporting period.

B. Which were issued
during the reporting            30       $11,722,792      $47,755,360
period.

C. For which a
management decision
                                30       $11,722,792      $47,755,360
was made during the
reporting period.

(i) Dollar value of
                                 _           _                 _
disallowed costs


(ii) Dollar value of costs
                                 _           _                 _
not disallowed

D. For which no
management decision has
                                 _           _                 _
been made by the end of
the reporting period.

Reports for which no
management decision
was made within six              _           _                 _
months of issuance.




                                                   Reporting Requirements - March 2007   33
              reporting requirements

                   Table II: OIG Reports With Recommendations
                           That Funds Be Put To Better Use
                  Inspector General Reports        Number of
                                                               Dollar Value
                  With Recommendations That         Reports
                  Funds Be Put To Better Use

                  A. For which no management
                  decision has been made by
                                                       _            _
                  the commencement of the
                  reporting period.


                  B. Which were issued during
                                                       _            _
                  the reporting period.


                  C. For which a management
                  decision was made during the         _            _
                  reporting period.


                  (i) Dollar value of disallowed
                                                       _            _
                  costs


                  (ii) Dollar value of costs not
                                                       _            _
                  disallowed


                  D. For which no management
                  decision has been made by the        _            _
                  end of the reporting period.

                  Reports for which no
                  management decision was
                  made within six months of            _            _
                  issuance.




34   Reporting Requirements - March 2007
  Report Fraud, Waste or Abuse to:

   Office of the Inspector General
Federal Communications Commission




           CALL
   Hotline: (202) 418-0473
              or
       (888) 863-2244
     www.fcc.gov/oig




  You are always welcome to write or visit.
    Federal Communications Commission
             Portals II Building
      445 12th St., S.W. –Room #2-C762
Federal Communications Commission
   Office of the Inspector General




        445 12th St., SW
      Washington, DC 20554

        www.FCC.gov/OIG
